2311 Douglas Street
Omaha, Nebraska 68102-1214

C@OCKLE

e E-Mail Address:
Le ga 1 Briefs contact@cocklelegalbriefs.com

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No.

JASON FOWLER and MICAH PERKINS,
Petitioners,
v.

BRITTANY IRISH, Individually and as
Personal Representative of the Estate of Kyle Hewitt,
and KIMBERLY IRISH,

Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 8987 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this Ist day of April, 2021.
1 am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY-State of Nebraska zv
i RENEE J. GOSS 9. ( Luda ; Chk

My Comm. Exp. September 5, 2023
Affiant 40804

 

Notary Public
